 U.S. DEPARTMENT OF COMMERCE
           Office of Inspector General




               PUBLIC
              RELEASE


NATIONAL INSTITUTE OF STANDARDS
                AND TECHNOLOGY

        NIST’s Policy of Allowing Informal
          Collaborations with Non-Federal
  Researchers Requires Additional Controls

         Inspection Report No. IPE-10854 / September 1998




             Office of Inspections and Program Evaluations
September 30, 1998


MEMORANDUM FOR:                   Raymond G. Kammer
                                  Director
                                  National Institute of Standards and Technology

FROM:                             Johnnie E. Frazier
                                  Acting Inspector General

SUBJECT:                          Final Report: NIST’s Policy of Allowing Informal Collaborations
                                  with Non-Federal Researchers Requires Additional Controls
                                  (IPE-10854)

This is our final report examining the National Institute of Standards and Technology’s (NIST)
management of interagency and other special agreements. This report is part of a series of reports
to be issued on our Department-wide review of the various types of interagency and other special
agreements that the bureaus enter into with federal and non-federal parties. These agreements
involve performing work for others (reimbursable agreements), acquiring work from others
(obligation agreements), or coordinating complementary programs without the transfer of funds
(memoranda of understanding or agreement). We also tried to identify where Commerce bureaus
should be using agreements to better define their activities with other parties.

On a positive note, NIST has established and maintains a reliable process, with the necessary
policies and procedures, to monitor its interagency and other special agreements.1 Based on
limited field work performed from October 1997 through January 1998 at the National Institute of
Standards and Technology (NIST) operations in Gaithersburg, Maryland, and Boulder, Colorado,
we determined that NIST’s agreement processes and procedures compared favorably with other
Commerce bureaus. For example, NIST has a comprehensive set of guidelines for processing
agreements. Sections of its administrative manual are currently being updated and its intranet site
includes sample agreements, contact names, links to relevant regulations and laws, and decision
trees to help program officials decide which agreements are appropriate. NIST also maintains
databases of its agreements that provide information such as party, dollar amounts, and relevant
dates.

However, we later identified one issue that warrants management attention—NIST’s policy of
allowing informal collaborations with non-federal researchers without a signed, written




        1
         Because of work recently conducted by our Office of Audits, we excluded NIST’s cooperative research
and development agreements and guest researcher agreements from the scope of this review.
agreement. This portion of our review was conducted from March 24, 1998, through April 24,
1998.

With few exceptions, a written agreement is preferable when non-federal researchers work in
NIST facilities. NIST’s current policy of requiring a written agreement only when a non-federal
researcher works at NIST for more than 10 days during a calendar year does not violate federal
laws or regulations, but there are several inherent risks associated with this policy. To provide
more protection for proprietary information and government property, we believe that at a
minimum, NIST should keep a log of all short-term visiting researchers who are conducting
substantive work in NIST facilities without the benefit of a written agreement with NIST.

NIST’s response to our draft report concurred with our finding and recommendation and
indicates that NIST is taking preliminary actions to address our concern. A copy of the response
is included as an attachment to this report.

Please provide us with an action plan within 60 days addressing the inspection recommendation,
including when your action will be completed, in accordance with the procedures described in
DAO 213-5. We appreciate the cooperation and courtesies extended by your staff during our
inspection.

Background

NIST’s authorizing legislation directs it to work with U.S. industry and academia through four
programs: (1) measurement and standards research and development, (2) the Advanced
Technology Program, (3) the Manufacturing Extension Partnership, and (4) the Malcolm
Baldridge National Quality Award. These programs involve working extensively with outside
parties, sharing information and resources, and/or making scientific results available to the public.
NIST uses several forms of written agreements to encourage and formalize its collaborations with
other parties, including grants, contracts, cooperative research and development agreements,
guest researcher agreements, and interagency agreements. NIST also informally works with
outside parties without any written agreement.

According to NIST’s policy, a written agreement is not required when a non-federal researcher
works in NIST facilities for 10 days or less during a calendar year. This report is concerned only
with those non-federal visitors who qualify under this rule, by working for 10 days or less at NIST
without a written agreement. These visiting researchers may work in NIST facilities for several
days and engage in a broad array of work. Some visitors attend conferences or have brief
meetings with NIST personnel without doing any work in a laboratory, while others perform
substantive laboratory work. Furthermore, some visitors may meet with NIST personnel in an
office and then have a brief tour of a laboratory. We are primarily concerned with visiting
researchers who are performing substantive laboratory work rather than with those visiting offices
or simply touring the facilities. With some limited exceptions, NIST does not keep any records of
these visiting researchers; therefore, we could not determine how many visited NIST in fiscal year
1997.


                                                  2
Additional Controls Are Necessary to Better Address
the Risks of Not Always Requiring Written Agreements

As part of a 1995 internal review of commercializing technology, NIST considered the strengths
and weaknesses of not always requiring written agreements with visiting researchers. Weighing
the risks against its mission requirements, NIST decided to retain its policy of requiring non-
federal researchers to enter into a written agreement with NIST only if they work at its facilities
for longer than 10 days a year. NIST’s primary concern with requiring written agreements for all
visiting researchers is that the time involved in preparing and finalizing an agreement may deter
short-term visiting researchers. However, our concern is that there is not sufficient consideration
given to controlling visitor access to materials, equipment, and information.

We believe that the main risks identified by NIST—protection of intellectual property rights,
safeguarding proprietary information, and potential liability for personal and property
damages—that led to written agreements for long-term visiting researchers also apply to short-
term researchers. In addition, because NIST does not keep a log or other record of visitors,
NIST cannot determine whether it is in compliance with its own requirement to have written
agreements with researchers who stay longer than 10 days. We believe that, at a minimum, NIST
should require its laboratories to keep a log of all non-federal researchers who visit its facilities
but do not have a written agreement with NIST. This information should provide additional
protection against the risks of not having written agreements.

Documenting access to proprietary
information and valuable equipment

NIST is required by law to ensure the security of proprietary material. Relevant laws and
regulations include the Economic Espionage Act, the Trade Secrets Act, and the Department’s
Personnel Security Manual. In addition, the Department’s Physical Security Manual provides
procedures for permitting access to facilities and safeguarding government-owned property. We
did not review how well NIST implements these laws and regulations. We only evaluated
whether informal collaborations with non-federal researchers violate security regulations and
unnecessarily expose NIST to the risk of disclosing protected information and having valuable
property stolen or damaged. Considering recent security problems with short-term visitors at
other federal laboratories,2 we have concerns about the lack of controls over visiting researchers
working at NIST without an agreement.

We observed two potential security weaknesses in NIST’s current practice of permitting informal
collaborations with non-federal researchers. First, visiting researchers may obtain unauthorized
access to proprietary material. In fiscal year 1997, NIST had 127 agreements with non-federal
parties that prohibited the unauthorized disclosure of any proprietary information exchanged. The
actual amount of proprietary information may be limited, but the existence of any such material is


        2
         Department of Energy: DOE Needs to Improve Controls Over Foreign Visitors to Weapons
Laboratories, GAO/RCED-97-229, September 25, 1997.

                                                    3
of concern to us. Considering that visiting researchers generally have free access to most, if not
all, areas of NIST laboratories, sensitive materials may not be properly protected.

Second, NIST’s lack of access controls places expensive equipment and other property at risk of
being stolen and makes recovery of these items more difficult. Over the past several years,
NIST’s Gaithersburg facilities have experienced increased incidents of petty theft as the
surrounding area has continued to develop. The Department’s Office of Security is in the process
of reviewing NIST’s physical, information, and personnel security. NIST possesses a substantial
amount of specialized and costly equipment. If equipment is stolen or damaged by a visiting
researcher, NIST may not be able to identify all of the people who may have spent a substantial
amount of time working with or around the equipment.

Because of its mission, NIST has determined that it should have a higher degree of openness in
dealing with the public than most other government agencies. However, NIST must maintain a
balance between meeting its security responsibilities and interacting with the public. We are
concerned that NIST cannot determine or estimate how many visiting researchers are working at
its facilities and therefore is not sufficiently aware of the associated risks. A record of visiting
researchers would allow NIST to determine who had access to certain facilities if equipment is
missing or damaged or if there is a claim that an unauthorized person had access to proprietary
material. In addition, a record could potentially be a deterrent to someone intending to steal or
damage NIST property and could aid in the recovery of lost property.

Minimizing the Administrative Burden

Knowing how many short-term researchers use its facilities would allow NIST to better quantify
and perhaps even reduce the risks of not always requiring written agreements. NIST could also
use the information as a management tool to help determine whether these collaborations are
within its mission and an appropriate use of the laboratories’ resources. Keeping track of these
visiting researchers would also provide the information needed for NIST to periodically reassess
its policy of not requiring formal agreements for these short-term researchers.

The limited additional burden of implementing a record-keeping system would not outweigh its
advantages. Unlike the processing of written agreements, keeping a log of visitors does not
require significant administrative time. In fact, implementation at the division level would be fairly
simple. The NIST employee hosting a non-federal researcher could record basic information
about the visitor, such as name, employer, citizenship, and purpose and date of the visit. The
information should then be consolidated at the laboratory level for management’s use. Because
we are suggesting that NIST employees record the information about short-term visitors, it is also
unlikely that these researchers would be discouraged from collaborating with NIST.

At least one laboratory (the Electronics and Electrical Engineering Laboratory) currently collects
and reports its informal interactions with outside researchers. The laboratory records interactions
at the division level and periodically consolidates the data for the entire laboratory. Information
such as the name of the visitor, visitor’s affiliated institution, nationality, dates visited, and


                                                  4
sponsoring NIST employee are recorded. We believe this is a good practice that should be
followed by the other NIST laboratories. In implementing our recommendation, we stress that
NIST should require its divisions and laboratories to focus on recording informal collaborations
that involve substantive laboratory work.

At our exit conference for this review, we were told that NIST plans to implement a new
requirement for all foreign and domestic researchers who perform laboratory research for any
length of time. These visitors may sign a written agreement or provide basic personal
information, such as name, citizenship, and employer, that NIST will store centrally. We believe
that this policy could be responsive to our recommendation if implemented properly. We request
that NIST provide more detail about which visitors this policy will apply to, the types of
information that will be collected, and the method of implementation.

Recommendation

We recommend that the NIST Director require the agency’s laboratories to record informal
interactions with non-federal researchers where work is performed in NIST laboratory facilities
and there is no written agreement with the researcher. Data should be collected at the division
level and consolidated at the laboratory level. This additional data should be used by NIST to
periodically evaluate its policy of not requiring formal agreements for these short-term
researchers.


In response to our draft report, NIST agreed with our recommendation presented in the report.
NIST’s response states that the recommendation will be resolved as a matter of course by
continuing implementation of the newly developed policies and procedures on foreign and
domestic guest researchers. We have requested a copy of an action plan to address our
recommendation.


Attachment

cc:    Bruce Mattson, Program Coordinator, NIST Industrial Partnerships Program
       Michael R. Rubin, NIST Council
       Marilyn Khan, NIST Audit Liaison




                                                5
                                Attachment
NIST’s Response To The Report




             6
7
8
